<html>
<title> - SECURING OUR PORTS: INFORMATION SHARING IS KEY TO EFFECTIVE MARITIME SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 SECURING OUR PORTS: INFORMATION SHARING IS KEY TO EFFECTIVE MARITIME 
                                SECURITY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      FINANCE, AND ACCOUNTABILITY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2006

                               __________

                           Serial No. 109-253

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
42-324 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                    Melissa Wojciak, Staff Director
                   David Marin, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Government Management, Finance, and Accountability

              TODD RUSSELL PLATTS, Pennsylvania, Chairman
VIRGINIA FOXX, North Carolina        EDOLPHUS TOWNS, New York
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
GIL GUTKNECHT, Minnesota             PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
JOHN J. DUNCAN, Jr., Tennessee

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Mike Hettinger, Staff Director
               Tabetha Mueller, Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 10, 2006....................................     1
Statement of:
    Kelly, Ray, police commissioner, city of New York............     6
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York......................................    20
    O'Brien, Captain Robert, Commander, Coast Guard Sector New 
      York and Captain, Port of New York and New Jersey; Bethann 
      Rooney, Security Manager, Port Commerce Department, Port 
      Authority of New York and New Jersey; and Stephen Caldwell, 
      Acting Director, Homeland Security and Justice Issues, U.S. 
      Government Accountability Office...........................    25
        Caldwell, Stephen........................................    53
        O'Brien, Captain Robert..................................    25
        Rooney, Bethann..........................................    35
    Owens, Hon. Major R., a Representative in Congress from the 
      State of New York..........................................     5
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York..........................................     4
Letters, statements, etc., submitted for the record by:
    Kelly, Ray, police commissioner, city of New York, prepared 
      statement of...............................................    10
    O'Brien, Captain Robert, Commander, Coast Guard Sector New 
      York and Captain, Port of New York and New Jersey, prepared 
      statement of...............................................    27
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........     3
    Rooney, Bethann, Security Manager, Port Commerce Department, 
      Port Authority of New York and New Jersey, prepared 
      statement of...............................................    38


 SECURING OUR PORTS: INFORMATION SHARING IS KEY TO EFFECTIVE MARITIME 
                                SECURITY

                              ----------                              


                         MONDAY, JULY 10, 2006

                  House of Representatives,
Subcommittee on Government Management, Finance, and 
                                    Accountability,
                            Committee on Government Reform,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
Borough Hall, 209 Joralemon Street, Brooklyn, NY, Hon. Todd 
Russell Platts (chairman of the subcommittee) presiding.
    Present: Representatives Platt, Towns, Maloney, and Owens.
    Staff present: Mike Hettinger, staff director; and Tabetha 
Mueller, professional staff member.
    Mr. Platts. There is a quorum present.
    This hearing of the Subcommittee on Government Management, 
Finance, and Accountability will come to order.
    Securing our Nation's ports against potential terrorist 
attack has become one of our Nation's security priorities since 
September 11, 2001.
    Given the fact that the ports are large, sprawling 
enterprises, that often stretch across jurisdictional 
boundaries, the need to share information among Federal, State 
and local governments, as well as private entities, is central 
to effective prevention and response.
    Today, the maritime system of the United States consists of 
more than 300 sea and river ports, with more than 3,700 cargo 
and passenger terminals, and more than 1,000 harbor channels 
spread across thousands of miles of coastline.
    The Port of New York and New Jersey, the Nation's third 
largest port, is critical to the economic vitality of the New 
York metropolitan region, as well as the entire east coast.
    The Port of New York and New Jersey brings together 
diverse, complex, and economically intertwined and competing 
interests serving not only the States of New York and New 
Jersey, but also Connecticut, Rhode Island, Massachusetts, and 
my home State of Pennsylvania.
    Coordination between and amongst all of these entities is 
vital for national security.
    The U.S. Coast Guard has been designated as a lead Federal 
agency, with responsibility of port security.
    The Coast Guard, along with the New York Police Department 
and the Port Authority of New York and New Jersey, has made 
significant progress in providing effective training for port 
security here in this region.
    There is more that needs to be done, however.
    We are pleased to have with us today two panels; Mr. Ray 
Kelly, police commissioner for the city of New York, Captain 
Robert O'Brien, captain of the Port of New York and New Jersey, 
Ms. Bethann Rooney, security manager of the Port Authority of 
New York and New Jersey, and Mr. Stephen Caldwell, from the 
U.S. Government Accountability Office.
    We appreciate all the witnesses being here today.
    I will now yield to Mr. Towns for the purpose of an opening 
statement.
    [The prepared statement of Hon. Todd Russell Platts 
follows:]
[GRAPHIC] [TIFF OMITTED] T2324.001

STATEMENT OF HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me officially welcome you and the committee to the 
borough of Brooklyn.
    I thank you for holding this hearing on port security, and 
its vital importance to the city of New York, and to our 
Nation.
    I would like to welcome Commissioner Ray Kelly; also, 
Bethann Rooney, Security Manager for the Port Authority of New 
York and New Jersey; Captain Robert O'Brien, commander of the 
Coast Guard, and Captain of the Port of New York and New 
Jersey; and Stephen Caldwell, acting Director of Homeland 
Security.
    Thank you all for coming here today to testify on the vital 
issues surrounding port security in the Nation's greatest 
metropolis, New York City.
    This hearing could not be more timely or more important.
    We New Yorkers really feel shortchanged by the current cuts 
in Federal funding. New York City will receive 40 percent less 
than the $207 million we received in 2005 to combat terrorism. 
How could that be, if we are terrorists' No. 1 target?
    I'm sure that other cities have legitimate security needs, 
and obviously, there is only so much Federal money to go 
around. But September 11th happened here in New York, almost 3 
thousand lives were lost. We have suffered the only foreign 
terrorist attack on American soil.
    How much does this city have to take?
    Do we have to sustain another terrorist attack before we 
get the money we need to protect our ports and our cities?
    I sure hope not. I believe that we must have a firm 
commitment from our Federal Government to make sure that New 
York City gets the money it needs to protect our ports, and our 
city from the real threats of terrorism.
    That leads us to why we are here today.
    Since September 11, 2001, our Nation has been forced to 
confront the vulnerability of its ports. I applaud the Port 
Authority in its work to make our ports safe and secure.
    Port commerce remains a vital component of our local 
economy. Cargo activity alone accounted for over 230,000 jobs. 
That's due to increased demand for imported goods. That's $132 
billion that have passed through the Port Authority in only 1 
year.
    Certainly, the Federal Government has provided a key role 
in securing our ports. The Port Authority is working with the 
Federal Government to secure its terminals and improve its 
screening procedures, with help from the Department of Homeland 
Security.
    This includes programs like the Container Security 
Initiative, and the Customs-Trade Partnership against 
Terrorism.
    In addition, the Port Authority recently completed its 
second phase of Operation Safe Commerce that helps to secure 
products passing through Port Authority facilities.
    But this is only a beginning. We need a more effective 
security clearance process, and a better worker ID procedures 
for port employees. We especially need the sharing of timely 
port security intelligence between the Federal, State and local 
governments.
    We are not asking for the world, but we are asking for the 
dollars that we need as our New York City and New Jersey ports 
handle the world's good. We cannot continue to have less than 
the best possible protection of our ports.
    They are very important to our city, our State, to our 
Nation, and the world.
    That means that we must restore the budget cuts from the 
Department of Homeland Security as we continue to work together 
to ensure that the finest ports in our Nation are fully secured 
against the threats of terrorism.
    On that note, Mr. Chairman, I yield back my time.
    Mr. Platts. Thank you Mr. Towns. We appreciate your well-
stated reporting. And we will be working with you on these and 
other ports around the country.
    We are also pleased to be joined by Congressman Owens, and 
I recognize Congressman Owens.

STATEMENT OF HON. MAJOR R. OWENS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Owens. Thank you very much.
    I would briefly like to welcome the committee, thank you 
for coming to Brooklyn, and applaud Congressman Towns' 
influence in getting you here today.
    It is very important that you be here, and let the rest of 
the world know that New York City is not only Manhattan. 
Brooklyn is where most of the people live.
    When the World Trade Center was bombed, the air pollutants 
and the wind was easily blown right across the river to Park 
Slope and parts of Brooklyn here. And the distance is quite 
small. We've had polluted air blowing in the wind.
    And it's hard for me to get Washington to recognize that we 
have a problem with certain parts of Brooklyn as to 
contamination.
    Of course, the Park Slope community had large numbers of 
people who worked in the World Trade Center. And a number of 
our families lost members there.
    We are very much part of being on the front line in terms 
of homeland security and concerns.
    I hope that you being here will help ease the burden that 
has been placed on the New York City legislators.
    We should not be a burden. Every high school sophomore 
should look at the geography of New York City, and look at the 
richness of the monuments minutes, and kind of targets that we 
have here, and understand that we are vulnerable. Many 
terrorists would like to make a statement here. That's what 
happened with the World Trade Center.
    It is unfortunate, and I apologize as a member of the 
Government, we should not have to fight our Government to make 
them realize the freedom. If you're going to officially 
distribute moneys for Homeland Security, they should certainly 
address New York City, in particular, in a special way. And our 
ports, of course, are the most vulnerable targets in our city.
    Congressman Shuman has said it many times, loudly, 
intelligently, and others have said it. There is not much more 
to be said.
    It is obvious that we need to address the port situation, 
and we need to do it right away.
    The fact that there is pressure on Washington to distribute 
Homeland Security funds with some kind of special formula, in a 
Federal way, to everybody, gets a little bit, has been 
ridiculous.
    New York City does not get the fair share of agriculture. 
We don't have farms, we don't ask for agriculture subsidies, 
and numerous other kind of distributions of funds that take 
place. It is ridiculous to talk about a fair share. We need to 
money to go where it's needed.
    We know that this is on the minds of all elected officials. 
I can think of occasions myself. It's something that's a 
pressure.
    In the area of Homeland Security, we are the front line. So 
this is strictly not biased, nondistrict. Let's distribute the 
money strictly based on terms of security and targets.
    I'm hoping that you being here today will drive home the 
voice of the New York City delegation. It's common sense.
    Thank you very much.
    Mr. Platts. Thank you, Congressman Owens.
    We will now proceed to our first panel, our witness, 
Commissioner Kelly.
    It is our practice to swear in all witnesses.
    I ask you to stand to take the oath.
    [Witness sworn.]
    Mr. Platts. Commissioner, we appreciate the written 
testimony you provided us, and the floor is now yours.

 STATEMENT OF RAY KELLY, POLICE COMMISSIONER, CITY OF NEW YORK

    Commissioner Kelly. Thank you, Chairman Platts, Congressman 
Towns, Congressman Owens, thank you for inviting me today.
    Security of New York City's ports and waterways is a huge 
concern for the New York City Police Department.
    Today I would like to discuss with you the range of 
maritime counter-terrorism activities that we engage in, 
including our collaboration with the Federal agencies that bear 
the primary responsibility for port security.
    In general, information sharing between the Department and 
our Federal partners has never been better, and it is growing 
stronger every day.
    That is a credit to the various interagency initiatives 
that I will discuss in a moment.
    Without question, these have improved our joint efforts to 
protect the homeland certainly in New York City.
    At the same time, the complex, diffused nature of port 
management and security leaves these facilities vulnerable to 
exploitation by terrorist cells or networks.
    At the end of the day, we are still left with the question 
of who is really in charge of protecting our ports.
    In actuality, it is a responsibility shared among the 
scores of public and private stakeholders present at the ports, 
a situation that creates its own set of challenges.
    Two recent cases highlight why we should be concerned about 
the security of our ports.
    In 2003, working through the Joint Terrorist Task Force, 
the Police Department took part in an investigation that 
resulted in the arrest of a Queens-based Pakistani national, 
Uzair Paracha, and his father, for conspiring to provide 
material support to Al Qaeda.
    The family owned a clothing import business in Manhattan's 
garment district.
    In Pakistan, they plotted with September 11th mastermind 
Khalid Sheikh Mohammed to use shipping containers controlled by 
that company to smuggle weapons and explosives into New York 
for delivery to Al Qaeda operatives.
    Fortunately, they were arrested before that could happen.
    We are not certain if Paracha's plan would have included 
recruiting operatives to pick up the deadly cargo at its port 
of entry. What we do know, this task probably would have been 
accomplished easily, given the lax security check in place in 
our ports.
    As was reported in the media this past March, a recent 
Federal investigation exposed the minimal identification 
requirements for truck drivers seeking access to New York and 
New Jersey terminals. Many were revealed to have serious 
criminal records, and they were not required to disclose in 
their applications, including 21 individuals who had 
outstanding warrants.
    The Federal Government has sought to address this problem 
with the creation of a secure, biometric ``smart card'' for 
workers at critical transportation facilities. However, that 
program has experienced significant delays and is not expected 
to be fully implemented until late 2007, at the earliest.
    In contrast, progress in the area of information sharing 
has been far more expeditious.
    As you know, the Police Department takes part in a number 
of interagency initiatives with the Federal Government to 
gather and assess potential terrorist threats against critical 
infrastructure.
    They include the Joint Terrorist Task Force with the FBI. 
We currently assign over 120 New York City Detectives to that 
task force, up from the seventeen investigators posted there on 
September 11, 2001.
    Any threat information received through the JTTF that is 
related to ports or waterways is shared and analyzed with the 
U.S. Coast Guard's Field Intelligence Support Team, or 
``FIST.''
    As part of our excellent working relationship with the 
Coast Guard, the Police Department assigns a detective to 
``FIST,'' which also includes liaisons from numerous other 
Federal and State agencies.
    In addition, we work with the Coast Guard and other 
agencies through the Area Maritime Security Committees. Members 
of our Intelligence Division, Counterterrorism Bureau and 
Harbor Unit regularly participate in meetings of the 
Intelligence and Response and Recovery Subcommittees.
    I also want to note a new Port Intelligence Center concept 
that we are currently developing with DHS agencies.
    The center, which will be housed at a DHS facility, will 
focus on intelligence collection within the Port of New York 
and New Jersey.
    Turning to our physical protection of the waterways. The 
Police Department currently deploys more assets to protect New 
York Harbor than any other single agency. Our harbor units 
joint with the Coast Guard in boarding high profile vessels, 
like the Queen Mary 2, so as to provide additional security 
when it enters local waters.
    We also jointly enforce restricted zones for ships during 
events such as the U.N. General Assembly. In addition, police 
dive teams routinely inspect docking facilities and ship hulls 
for signs of tampering.
    Our Special Operations Division has conducted drills in 
which police officers fast rope from helicopters onto ferries 
and party boats operating in New York Harbor. And we are 
prepared to do the same thing, if confronted with a real need.
    Our Harbor, Scuba and Aviation units have also drilled in 
exercises with the U.S. Park Police in responding to mock 
incidents at the Statue of Liberty.
    And under our ``Nexus'' program, detectives routinely visit 
port warehouses, trucking companies and importers. They work 
with employees in these businesses to train them to report any 
suspicious activity.
    As much as the Police Department and its law enforcement 
partners are doing at the local level, I also want to highlight 
the critical need for an effective international program to 
pre-screen cargo.
    The fact is the last place that we should be looking to 
intercept a container that has been co-opted by terrorists is 
in a busy, congested and commercially vital port.
    Ultimately, we should see to it that every container that 
arrives in a U.S. port has been pre-screened.
    In Hong Kong, the public-private partnership that operates 
the port has developed a prototype in which 100 percent of the 
cargo that passes through its facilities is inspected for 
radiation and density distortions.
    The system guarantees that any container shipped to the 
port is thoroughly inspected for weapons of mass destruction.
    I've been to Hong Kong and seen the incredible volume of 
cargo moving through that port. If it can be done there, it can 
be done anywhere.
    We need to replicate that system locally.
    A 100 percent scanning regime is doable. It is effective, 
and it's affordable, especially when compared to the disastrous 
cost of a weapon of mass destruction smuggled into the country.
    In a little publicized port security war game conducted in 
2002, terrorists attacked the United States with dirty bombs 
sent in shipping containers. One hypothetical bomb was 
detected. The other was not.
    It blew up in Chicago, and closed every U.S. seaport for 
more than a week. It also caused the Dow stock index to drop 
500 points, and resulted in $58 billion in damage.
    This is the kind of nightmare scenario that we have to 
prevent.
    Unfortunately, the fact that New York City's Federal 
counterterrorism funding was just cut by 40 percent isn't going 
to help.
    The Police Department had intended, for example, to use 
that funding in the new initiative to secure lower Manhattan 
with a comprehensive new camera network and other technology. 
It is not clear now if we will be able to do that.
    As if the decision to reduce the City's share of Federal 
dollars wasn't baffling enough, last week, the public learned 
of the latest terrorist plot to attack the Hudson River 
tunnels.
    It is a further reminder of Al Qaeda's enduring obsession 
to target the world's financial capital, not just its ports, 
but also its bridges, its tunnels and its subways.
    It is a wake-up call that more must be done to harden New 
York's infrastructure, across the board, if we are to prevent 
disaster, and defeat the terrorists.
    Thank you for inviting me today, and I'll be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Kelly follows:]
    [GRAPHIC] [TIFF OMITTED] T2324.002
    
    [GRAPHIC] [TIFF OMITTED] T2324.003
    
    [GRAPHIC] [TIFF OMITTED] T2324.004
    
    [GRAPHIC] [TIFF OMITTED] T2324.005
    
    Mr. Platts. Thank you, Commissioner Kelly.
    And we appreciate you being here, and also, the service of 
yourself and all the men and women in the New York City Police 
Department day in and day out, in the service to the citizens 
of New York City and the terrorists that come through the city 
of New York.
    Commissioner Kelly. Thank you Mr. Chairman.
    Mr. Platts. A couple of issues that I would like to touch 
on.
    The funding issue, that is of real concern to New York and 
other urban areas.
    And in some of the analysis regarding the urban area 
security initiative where now we look at both risk and 
effectiveness of the proposed use of grant funds.
    And New York was ranked No. 1 in the risk assessment, but 
not ranked high in effectiveness.
    I'm curious as to what, if any, feedback the City received 
in guidelines in preparing the grant applications, requests 
that have been submitted, or since the decision has been made 
as to why your proposals perhaps weren't scored by the peer 
review panel as high as others.
    Commissioner Kelly. Well, first let me say that the 
application itself was prepared by Office of Management and 
Budget. The Police Department is only one agency that submits a 
plan, and submits a request.
    I, myself, have not received what I would consider to be an 
adequate explanation of the analysis, or the evaluation process 
that has gone forward, and I haven't met anybody who has. I 
haven't met anybody who can explain it.
    The explanation keeps changing, as far as the evaluation of 
our effectiveness is concerned.
    So it's difficult for me to answer your question.
    I know that we, as an agency, the Police Department, adhere 
to all of the Department of Homeland Security guidelines, as 
far as the requests were concerned.
    I think there were some changes made in the application, 
the OMB application. I believe that was made after discussion 
with Homeland Security officials.
    Mr. Platts. And given, as you reference, the disclosure 
this past week regarding the targeting of the tunnels, the 
importance of us adequately filling our commitments to New York 
as a No. 1 likely target, one of the other aspects besides 
funding is information sharing.
    And in our second panel, we will get into a little detail 
as to how we stand in that.
    From your perspective as police commissioner, how do you 
see information sharing with regard to port security as 
compared to other aspects of homeland security for the city of 
New York?
    Commissioner Kelly. I think information sharing is good. 
And port security information sharing is part of a larger 
process of information sharing.
    And all indications are that all agencies are willing to 
share information, and they have, obviously, there are some 
constraints as far as security clearances are concerned, but 
once that's addressed, the information is shared.
    I believe that the area maritime security committees that 
have been set up are effective, and it's working well here in 
New York.
    The information that I have, those are committees that have 
Federal, State and local representatives, and private sector 
stakeholders, as well.
    I think that vehicle is effective. It's particularly 
helpful when we have major events here in New York. We have 146 
square miles of water here in New York Harbor. We have many 
major events on the water. For instance, just on July 4th we 
had hundreds of pleasure craft, party boats--actually, big 
cruise ships here for the fireworks display.
    And I'm told that the coordination was excellent.
    Mr. Platts. On the security clearance issues, specifically, 
I know there has been some great improvements made in getting 
the security clearances through the pipeline.
    Is the Police Department still experiencing problems, 
delays, in that area, or have changes been made to help to kind 
of speed up that process?
    Commissioner Kelly. We still have some problems in that 
regard. Part of it is the fact that, of course, we are rotating 
people in and out. People retire, they have to go through the 
process again.
    Unlike Federal agencies, where if you come on board in 
certain jobs, you're going to have a security clearance, that s 
a requirement for the job.
    That's not the case in the Police Department. It depends on 
your specific assignment.
    It's a bit of a challenge for us.
    But you're right, the procedure has improved. I would like 
to see it even quicker than it is now.
    Mr. Platts. In relation to the clearance issue, is there 
any intelligence information that you believe is available 
through the Federal entities that your department, even with 
clearances, doesn't have available access the way we should, or 
things that you working on?
    Commissioner Kelly. I think that we are, as an agency, we 
have access to that information. Certain people in the agency 
may not have it, but we as, an agency, will have people with 
the appropriate clearance.
    There are certain units that we have, that have the 
adequate clearances to receive the information.
    So I can't think of any examples where we are not getting 
information that I think we should have.
    Mr. Platts. One final question before I yield to my 
colleagues.
    In your testimony you talk about the identity requirements 
on accessing the ports, truck drivers and long-term security, 
as the intent of the smart card, perhaps sometime in 2007, 
maybe best case scenario.
    Where would you say we stand today to address the type of 
failings of identity checks in the past? Where is that identity 
check process?
    Commissioner Kelly. I think we have a long way to go.
    We do have a Waterfront Commission here in the Port of New 
York. They do a certain amount of vetting.
    In fact, you have to have a waterfront clearance to work in 
the ports, or certain functions in the ports.
    I think that procedure could probably be perhaps one that 
delves a little deeper, and done a little more effectively than 
it has so far been done.
    So we have talked to the Waterfront Commission folks.
    But I think that we could all be helped if that procedure 
was made more effective and more in-depth.
    So we await the Homeland Security's initiatives. So the 
biometric card, I think, would be a big step in the right 
direction.
    Mr. Platts. Are we at a stage where at least we are better 
vetting the criminals and those with known records?
    Commissioner Kelly. Yes.
    Mr. Platts. Actually, outstanding warrants. That's not 
defeating itself?
    Commissioner Kelly. Yes. I think the background checks, the 
criminal background checks, are going forward. And yes, I think 
that's reasonably effective.
    But I think we need more to be done in that area, more to 
be done, in a deeper examination.
    Mr. Platts. Thank you, Commissioner.
    I yield to the ranking member, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Thank you, again, Commissioner Kelly, for coming.
    There are always statements and rumors about the lack of 
communication.
    Do you feel comfortable today in terms of communications 
between the various agencies that have responsibility for 
making certain that our ports are secured?
    Commissioner Kelly. Yes, I do.
    As I said before, Congressman, I believe these areas, the 
maritime security committees that have been put in place, are 
an effective vehicle to foster that communication and 
coordination.
    I believe we are talking now, we are communicating now, 
better than we ever have before, and as far as the ports are 
concerned, that's a vehicle that we have facilitated.
    Mr. Towns. If someone asks a question about who is 
responsible for the security of our ports, what would be the 
answer?
    Commissioner Kelly. It's not an easy answer to give.
    In 2000, I was the U.S. Customs Commissioner, I co-chaired 
a committee on security in our ports.
    One of the conclusions that we came to is, if you see one 
port, you've seen one port. They all look different, they are 
all, the jurisdictions, there are multiple jurisdictions, no 
two ports look alike.
    It's not easy to answer that question.
    Certainly, the Coast Guard has a significant 
responsibility, but then you have multiple jurisdictions.
    In New York, you have New York and New Jersey.
    You have New York City, New York State. You have cities in 
New Jersey. You have a Waterfront Commission. You have Federal 
agencies that are involved, customs and border protection.
    You have Immigration and Customs Enforcement.
    Those are multiple agencies, multiple State, and local, 
Federal agencies that are involved.
    There is no one agency that's in charge of security in the 
ports throughout the country.
    Having said that, again, the communication, the improved 
communication that we have, and coordination, I think goes a 
long way to addressing some of the concerns that existed in the 
past.
    We had no one in charge, we didn't have very good 
communication. Now we have much better communication than we've 
had in the past, much better coordination.
    Mr. Towns. Now with the cuts, Operation Atlas, which 
everyone had so much hope for, is that in jeopardy now, without 
the money?
    Commissioner Kelly. Which program, sir?
    Mr. Towns. Operation Atlas.
    Commissioner Kelly. Well. No, Atlas is a program where we 
take large numbers of uniformed officers and deploy them at 
sensitive locations throughout the city.
    We are going to continue to do that program. We're using 
local funds to do it.
    The Mayor has made it clear that he will find the money to 
enable us to do that.
    But our counter-terrorism efforts in New York City, in the 
Police Department alone, averages about $200 million a year. 
And the Atlas program is a portion of that.
    So we are going to continue to do it. We think it's very 
important to have booths on the ground, technology can only do 
so much.
    Yes, we want additional cameras, we want license plate 
readers.
    But there is nothing like having a uniformed police 
presence at locations that we are concerned about.
    So we're going to continue to use our police officers in 
our Atlas program in a comprehensive way.
    Mr. Towns. It seems unfair that we are cutting funds, 
knowing that the need is so great. That sort of bothers me, to 
be honest with you.
    When we look at the formula, when you look at the risk 
factor, how do you feel about that?
    It seems to me that money should be based on risk.
    I think Congressman Owens is right when he said that we 
need to put the money where we know that the problems are going 
to be.
    And the fact that New York has already been hit, it's not 
something that--we know about September 11th.
    So it seems to me that being we are very much aware of what 
happened on September 11th, and knowing in terms of the fact 
that we have all these buildings and possible threats, a strong 
rumor about the Brooklyn Bridge, which you and your department 
did a fantastic job in avoiding that, and we appreciate that.
    But don't you think that risk should be the key factor, if 
you're giving out money?
    Commissioner Kelly. Absolutely.
    There's no question about it.
    If you look at all of the analysis, both the classified 
analysis, the public analysis, there is no city in America that 
is anywhere close to being at risk the way New York City is.
    We are on top of the terrorists' targets, we're in the 
cross hairs, as we say.
    And when we examined, or when there was a big public 
concern about the distribution of funds, or the reduction in 
funds, this came out when Congressman King and others talked 
about the fact, in closed door sessions, that it was obvious 
that no other city in America comes close to New York in terms 
of the risk factors, and the threat information that comes in.
    There is no doubt in my mind.
    Yes, there are other cities, there are other locations that 
are at risk, but you just can't, in good conscience, cut New 
York City 40 percent, when you're aware of, when you're given 
the information that New York is far and away the city that is 
most threatened by terrorism.
    Mr. Towns. Thank you very much, Commissioner.
    And thank you for your dedication to the city.
    Mr. Platts. Thank you, Mr. Towns.
    Mr. Owens.
    Mr. Owens. Yes. Commissioner.
    I noticed you mentioned in your statement that you had not 
been apprised of the evaluation results, what things were found 
to be wrong in your evaluation that was done, the plan 
submitted by New York.
    I have seen at least one article where the columnist said 
that part of New York's problem was the Homeland Security 
people in Washington didn't think that you had done anything 
new with the funds that were available. And a large percentage 
of the money was spent just on covering overtime, covering 
things that you always do.
    So I wonder if you can address the situation in terms of, 
first of all, is the Police Department being asked to do too 
much in this situation in terms of taking on new 
responsibilities, when there are demands that are ongoing.
    There are some things that only the police can do.
    When it comes to certain other surveillance, some other 
types of things that can be done to secure our ports, there may 
be other agencies that can also do that, but the police can do 
it better.
    The police have other things to do that only they can do, 
and they are police officers with weapons.
    So is there a need for a clear distinction of what you can 
do, and what you do best, and a definition of what else is 
needed, and if more people are needed, Customs, whatever, or 
maybe there is a new set of divisions that are needed somewhere 
in terms of the ongoing need to maintain security in our ports.
    This is going to be a thing with scanning machines and 
modern equipment, manpower. Manpower, human power, is low.
    So should the police be having too great a portion of that 
burden?
    Commissioner Kelly. Who else is there to do it?
    Mr. Owens. There are parts that only you can do.
    Commissioner Kelly. Well, we have a city of 8.1 million 
people here.
    Mr. Owens. But the ports is something new.
    Commissioner Kelly. I'm sorry?
    Mr. Owens. Securing the ports is something new.
    Commissioner Kelly. Securing the ports?
    Mr. Owens. That's something new added to your regular 
duties.
    Commissioner Kelly. When you say securing the ports, there 
are other agencies. Obviously, the Port Authority has a major 
role in securing the ports.
    We don't have a presence on the piers, you know, 
immediately at the piers.
    What we are doing is patrolling the waterways here. We have 
26 police launches. We are working closely with the Coast 
Guard.
    There are other maritime agencies. The State Police has a 
presence here.
    But nobody has an agency that comes close to us in size. 
There are no other resources available.
    So we will take help from any quarter, and I would welcome 
your recommendation, or suggestion, as to who else there is out 
there to help us.
    If you're talking about more resources to help us protect 
the ports, from Federal agencies, I'm all for it.
    Mr. Owens. I just wanted to clarify the situations.
    Are you being asked to do more than you can do with your 
help, and then you're criticized because you use additional 
moneys, resources, to pay overtime, because you use the same 
people, but they are doing more.
    How do you get out of that bind?
    Can you work with the other agencies? Who can do what best, 
and how you should not be burdened.
    Commissioner Kelly. We will take help from any quarter.
    But we still have not had a coherent explanation as to why 
those funds were reduced 40 percent.
    You said you've seen articles. I haven't seen an article.
    One of the categories that said that we were insufficient 
in was sustainability.
    We have been sustaining protection of the city since 
September 11th as far as our kind of terrorism programs are 
concerned.
    We have the biggest counterterrorism bureau in the country. 
We are the first in a municipal police agency.
    We formed our Intelligence Division. We have police 
officers funded by private sources, by the way, that are 
overseas.
    I think the rest of the law enforcement world is coming to 
New York, to see what we are doing.
    So I think we've done a lot of innovative things here, and 
I think we sustained it for almost 5 years now.
    You just can't comprehend what their explanations are as to 
why New York shouldn't get money. It doesn't stand the light of 
day.
    If you're looking at it in depth, as I say, nobody has 
explained it adequately.
    We are doing what we believe we have to. If anyone else 
wants to come along and add resources here, more law 
enforcement personnel, in the harbor, protecting our ports, we 
welcome that.
    Mr. Owens. Well, how much are your precincts involved in 
training local citizens for preparedness?
    Is that a city-wide policy with respect to all the 
precincts, one point or another, they are involved in local 
groups?
    Commissioner Kelly. When you say local groups, we have 
several initiatives in that regard. We have auxiliary police 
officers in our precincts. These are volunteers. We have about 
5,000 of those throughout the city.
    There are CERT's, there are citizen emergency response 
teams.
    We have some of them in our police precincts.
    The overall obligation of training those CERT's is with the 
Office of Emergency Management.
    We are also involved in training them, as well.
    Then there are several volunteer groups, citizen patrol 
groups, that we work closely with.
    Not every precinct has them. Some precincts in Brooklyn, 
and some in Queens, have citizen patrol groups that we work 
closely with.
    We also welcome that. We welcome citizen involvement. We 
stand ready to train any group that wants to get involved in 
helping us protect the city.
    Mr. Owens. Thank you.
    Mr. Platts. I'm pleased to be joined by Ms. Maloney, from 
New York. She might have a statement, as well as questions.

STATEMENT OF HON. CAROLYN MALONEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mrs. Maloney. Thank you so much.
    First, I would like to thank you, Chairman Platt, and 
Ranking Member Towns, for bringing attention to this terrorists 
threat area as No. 1 in our Nation.
    And before my statement on port security, I would like to 
followup on the excellent questioning of Congressman Owens to 
our Police Commissioner Kelly.
    With a cut of $123 million to the high threat area grant 
program, $83 million came out of the hide of New York City.
    No matter how they sliced it or tried to explain how that 
happened, anyone with any common sense knows that it is just 
plain wrong.
    And I would like to appeal to Chairman Platts and Ranking 
Member Towns to have a hearing back here in New York City with 
Federal people, and our Police Commissioner, and others, on 
that funding formula.
    I find it highly ironic that people come from all across 
this country, literally across the world, to come to New York, 
to learn how to protect people.
    By all categories, New York has the best, the brightest, 
the finest police department.
    I can't tell you how many countries say, can you get the 
Police Commissioner to come over here and tell us how to defend 
people.
    And in the formula, the City filled it out for what we 
needed. The 9/11 Commission said we needed intelligence, that 
it's a new type of war, that's very, very dependent on 
intelligence, on people, on having the police on the Brooklyn 
Bridge to foil the attacks that have been reported several 
times on that particular bridge.
    Yet then they said that our application was wrong, because 
the best police department in the world that everybody studied 
how they defend against terrorism, said we are putting our 
resources into what we think we need, which is intelligence, 
people, people on the ground, people defending.
    And they said that was wrong, it should have been a 
concrete item.
    Well, how many scandals have we read in the papers about 
concrete items that have been spent all across this country to 
various places that they will never absolutely ever use.
    And I would like to commission a GAO report on how this 
high threat money has been spent on concrete items, and whether 
they have ever even been used.
    I think it is a scandal beyond words what happened in that 
formula. It was a disgrace to our country, it was a disgrace to 
anyone who is serious about Homeland Security.
    It makes a mockery of the entire system.
    New York City got roughly $2.15 per capita. Wyoming gets 
roughly $15 per person, and at rush hour, there are more 
buffalo in Wyoming than people.
    So it really--I feel it really was not our finest hour.
    After September 11th, this country came together, and we 
were determined to combat terrorists. That formula is an 
absolute disgrace. We are trying to correct it.
    I really appeal to them to have a hearing on it.
    But the topic of today is port security, which is really 
incredibly important. And one does not have to look far beyond 
the Dubai Ports world fiasco to realize that we simply have not 
been paying enough attention to the security of our ports.
    I am very proud to have authored HR5337, the National 
Security First Act, which has been reported out of the 
Financial Services Committee with a unanimous vote, and we hope 
to pass that before we adjourn by August.
    And this would reform the process that conducted the 
national security review of that deal, and we have a lot more 
work to do before our ports will be secured.
    Especially when we consider that every year we have 
approximately 9 million containers entering our ports, that we 
only inspect a small fraction, 5 percent.
    In Hong Kong they inspect every single container that goes 
into their port. We can do the same thing in our own country.
    In the 9/11 Commission report, they stated that terrorists 
had the opportunity, this is from the 9/11 Commission report--
``the opportunity to do harm as great or greater than maritime 
and service transportation'' than the September 11th can.
    Yet GAO has previously reported that staffing imbalances in 
seaports has resulted in 35 percent of high risk containers not 
being inspected overseas. If they were inspected overseas, the 
work of our people here in the city would be a lot less, yet 
it's not happening.
    Since September 11th we have spent $780 million for Port 
Authority to strengthen port security activity, but port 
operators are on record stating that there is a $1.5 billion 
gap between what is required to implement security measures, 
and what the administration has been willing to support.
    Incredibly, the administration sought to eliminate the port 
security grant program in their fiscal 2007 budget in favor of 
a targeted infrastructure protection grant, which would force 
ports to compete for very limited resources, with mass transit, 
rail, and other critical infrastructure.
    I don't know about you, but this reminds my of the Homeland 
Security fiasco and the high threat grants.
    First, the Homeland Security high threat grants went to 
seven cities. Then they expanded it to thirty cities. Now 
they've expanded it even more.
    They are doing the same thing with the port grant program, 
putting it into a pot that will weaken the dollars that go to 
high threat ports.
    And we all know the outcome of the ``reform'' of the high 
threat initiative, 40 percent of the cuts in high threat 
funding for New York and D.C., a 40 percent cut for the two 
cities that, by all accounts, are the highest threat in our 
country.
    And I hope that your appearance today will set the 
groundwork for a new course when it comes to port security.
    And my question that I would like to ask the Police 
Commissioner was a report that came out from GAO which really 
spearheaded this, that many of the people who should be getting 
clearances for port security were not getting clearances in the 
local area.
    I know that's not your particular area, but as we know, the 
9/11 Commission report said that intelligence, the feet on the 
ground, and our local communities are the first to respond, the 
first to hear of a threat, and play an important part.
    So my question to you is, are your people getting the 
security clearance that you need to be fully informed of 
threats that the Federal Government, under the National 
Intelligence Division, or the FBI, CIA, or other intelligence-
gathering organizations, are you within the loop? Are you being 
shared the threats that they are hearing? Are you hearing it 
firsthand, are you hearing it on the daily news shows at night?
    Are you getting the clearances, are you part of that 
intelligence information setup?
    Commissioner Kelly. Congresswoman, before you arrived, we 
addressed that issue.
    And the answer generally is yes. I would like to see the 
procedure made a little bit more streamlined, a little quicker. 
But generally speaking, the system has improved.
    It has become a little bit more efficient. I think it needs 
a way to go.
    But we are getting our clearances.
    Mrs. Maloney. You're getting your clearances?
    Commissioner Kelly. Yes.
    Mrs. Maloney. And you're getting the information?
    Commissioner Kelly. Yes.
    Mrs. Maloney. Did you know about the threat down in 
Florida, where they went into a cell before it was reported on 
the news, or did you just learn about it from the news?
    Commissioner Kelly. We knew of the investigation that was 
ongoing, yes.
    Mrs. Maloney. Thank you very much, and thank you for your 
public service.
    Commissioner Kelly. Thank you.
    Mr. Platts. Thank you, Ms. Maloney.
    And I appreciate your participation.
    On the issue of the distribution formula, the full 
committee did a hearing a few weeks back, it did lead into the 
broader issue of how this was being implemented.
    I think you raised very legitimate concerns. And it is an 
issue that has been continued to be scrutinized.
    And the Commissioner outlined the needs here.
    Mrs. Maloney. Thank you for bringing that up.
    And I did attend the hearing that Chairman Davis had.
    At that hearing, there were many Members of the Congress 
from the D.C. area, and they said publicly that the real threat 
was New York City.
    And I would just like to respectfully request a hearing on 
New York City.
    And specifically, the point that has been in the papers 
that New York City has spent high threat money in areas that 
they believe will best protect the American people, and New 
Yorkers and citizens visiting our city.
    It was their determination, these grant makers decided that 
was not how the money should have been spent, they should have 
been buying oxygen tents, or something else. I don't know.
    But I think that it goes to the core of good government. It 
goes to the core of protecting our people.
    And I really would like to appeal for a hearing in the 
city, where the city professionals are, that can explain why 
they believe the high threat is what it is, and why they 
believe that is what should be funded.
    But to me, the disconnect that people come to New York to 
study how to defend their local area, even their foreign 
countries, and then, when they say this is how we need to spend 
the money, and then this group--I don't know where they're 
from--comes in.
    I read one report they were hired, they were advertising--
comes in and said the money should not be spent that way.
    I mean that is a fundamental question that I think needs to 
be answered.
    And I want to say that I support the Police Commissioner 
for speaking up for what he thinks needs to be done to protect 
people, and for being honest.
    He could fill out an application that talks about hardware 
that he doesn't need. He didn't do that. He said this is what 
we need to protect people, and that was turned down as not an 
appropriate answer.
    Yet then everybody comes to New York, tells us how to 
protect ourselves.
    So I'm very, very disturbed.
    It's absolutely wrong.
    And I think that the debate on the substance has never 
really taken place, and I think it needs to be.
    Mr. Platts. All of us share the belief that Commissioner 
Kelly and those on the front lines are better prepared to make 
a decision on how best to invest the resources than others far 
removed from the front lines.
    That is an issue we will take back to the committee.
    Specifically to appeal here in New York to the house rule 
does not allow us to have one between now and February, because 
of how close we are to the New York primary, and then the 
general election.
    But perhaps we can have one sooner, or after November here 
in New York.
    But it is an issue that certainly need to be investigated.
    Are there any other questions?
    Mr. Towns. No questions.
    I would like to thank the Commissioner for sharing his 
expertise with us. I really appreciate it.
    People come from all over to learn from our Commissioner 
and his staff.
    It seems to me they should also listen when he says, ``I 
need resources.''
    Thank you very much.
    Mr. Platts. Commissioner, again, we appreciate your 
testimony.
    And as one who is married to an upstate New Yorker, but who 
looks back with her 2 years here in the East Village, where she 
lived after college, very fondly, and it's always great, 
because I have my own personal tour guide when we come to the 
city.
    I appreciate the effort of you and the uniformed members 
under your command, what a great job you do.
    Thank you.
    Commissioner Kelly. Thank you very much.
    Mr. Platts. We will take a 2-minute recess, while we get 
the second panel set.
    [Recess.]
    Mr. Platts. We will reconvene.
    We have Captain Robert O'Brien, Commander of the Coast 
Guard, and Captain of the Port of New York and New Jersey; Ms. 
Bethann Rooney, security manager, Port Commerce Department, 
Port Authority of New York and New Jersey; and Mr. Stephen 
Caldwell, Acting Director, Homeland Security Justice Issues, 
U.S. Government Accountability Office.
    I ask the three of you, now that you are seated, I ask you 
to stand and raise your right hands to be sworn in.
    [Witnesses sworn.]
    Mr. Platts. Thank you.
    The clerk will note that all three witnesses affirmed the 
oath. They we will go from right to left.
    Captain O'Brien, the floor is yours.
    And we do have your written testimony, and as I call it, my 
homework leading up to the hearing.
    We appreciate all three of you sharing your testimony with 
us.
    And if you would like to summarize it, however you see fit 
to present your oral testimony now.

 STATEMENTS OF CAPTAIN ROBERT O'BRIEN, COMMANDER, COAST GUARD 
 SECTOR NEW YORK AND CAPTAIN, PORT OF NEW YORK AND NEW JERSEY; 
  BETHANN ROONEY, SECURITY MANAGER, PORT COMMERCE DEPARTMENT, 
    PORT AUTHORITY OF NEW YORK AND NEW JERSEY; AND STEPHEN 
   CALDWELL, ACTING DIRECTOR, HOMELAND SECURITY AND JUSTICE 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                  STATEMENT OF ROBERT O'BRIEN

    Captain O'Brien. Thank you.
    Good afternoon, Mr. Chairman and distinguished members of 
the committee, fellow port partners.
    It's a pleasure to be here today to discuss the Coast 
Guard's role and how information sharing between Federal, State 
and local authorities and private industry enhances our efforts 
to better secure U.S. ports, especially here in the Port of New 
York.
    I serve as commander of Coast Guard Center, New York. Our 
service is the largest East Coast field command.
    My mission is to focus on two major operational processes, 
prevention and response, in support of our services' five 
fundamental roles, national defense, maritime security, 
maritime safety, maritime mobility, and protection of natural 
resources.
    This port is an economic engine. We cannot afford, as a 
Nation, to have it closed, even partially, for any extended 
period of time.
    Effective information sharing allows us to plan not only 
for deterrence of attacks, and other unsafe happenings in the 
port, but also, a reopening strategy, and effective recovery of 
the port transportation system.
    I use the term ``port transportation system'' because that 
really includes the air, land and the maritime.
    The U.S. Coast Guard has taken on the 9/11 Commission's and 
the Department of Homeland Security's challenges for combatting 
terrorism in the maritime domain, especially in regards to 
improving our role in information sharing.
    Reliable actionable information that is shared effectively 
is key to our ability to address threats, reduce 
vulnerabilities, become better risk-based decisionmakers, and 
manage the consequences of incidents, man-made or naturally 
occurring.
    We place a premium on the information sharing to identify 
and intercept threats well before they reach U.S. shores by 
conducting layered, multi-agency maritime security operations, 
and by strengthening the port security posture of our strategic 
economic and military ports.
    I can think of no other model of interagency cooperation 
which has adapted, overcome and persevered through the attack 
on our own soil on September 11, 2001, through the varied 
challenges we face today.
    Like the partnerships here in New York, and the Port of New 
York and New Jersey, thanks to the cooperation, dedication and 
hard work of Federal, State, county, city and borough agencies, 
as well as the Port Authority and various levels of government, 
and many, many other private sector port partners, we have 
increased transportation security in our port by air, water and 
on land, both surface and subsurface.
    And we have protected national treasures and icons, such 
has the Statue of Liberty and the United Nations, unique to 
this international gateway port.
    We have enhanced information sharing through the use of 
interagency fusion centers, security committees, increased 
maritime domain awareness, and the daily routine of information 
exchanged with port partners that has been implemented and 
refined to mitigate and prevent threats, while also being 
mindful of maritime safety, since safety and security are 
really two sides of the same coin.
    As an example, our Coast Guard Field Intelligence Support 
Team here in New York, as mentioned before by Commissioner 
Kelly, is a one-stop interagency maritime intelligence center, 
including coordination and deconfliction of intelligence-based 
operations, as well as tracking of investigations with a 
maritime nexus.
    Essentially, fusion centers are force multipliers for all 
participants.
    The overall successor of the FIST partnership largely 
depends on the relations between individual representatives of 
each agency.
    In New York, these are strong relationships, have been 
essential in ensuring that all affected parties have been 
notified of a significant incident, even if the agency notified 
is not a participant in a fusion center.
    The Area Maritime Security Committee, Harbor Operations 
Committee, and Army Corps of Engineers Senior Partners Program 
Group are three more examples in my written testimony of the 
tools by which the information and operational coordination 
takes place here in the port.
    Mr. Chairman, as you know, the efforts and leadership of 
this very committee have played a significant role in all of 
these improvements and achievements for our entire military, 
civilian, and volunteer auxiliary Coast Guard team.
    We thank you for the opportunity to testify before you 
today.
    And we thank all of our port partners for everything they 
do in concert with us as equal partners to meet our daily 
challenges as a unified force.
    We will be happy to answer any questions that you may have.
    [The prepared statement of Captain O'Brien follows:]
    [GRAPHIC] [TIFF OMITTED] T2324.006
    
    [GRAPHIC] [TIFF OMITTED] T2324.007
    
    [GRAPHIC] [TIFF OMITTED] T2324.008
    
    [GRAPHIC] [TIFF OMITTED] T2324.009
    
    [GRAPHIC] [TIFF OMITTED] T2324.010
    
    [GRAPHIC] [TIFF OMITTED] T2324.011
    
    [GRAPHIC] [TIFF OMITTED] T2324.012
    
    [GRAPHIC] [TIFF OMITTED] T2324.013
    
    Mr. Platts. Thank you, Captain O'Brien.
    Ms. Rooney.

                  STATEMENT OF BETHANN ROONEY

    Ms. Rooney. Chairman Platt, Ranking Member Towns, members 
of the committee, thank you for the opportunity to testify on 
the important issue of Homeland Security, particularly with 
regards to our Nation's ports.
    95 percent of international goods that come into the 
country come in through our Nation's 361 ports. 12 percent of 
that volume alone is right here in the Port of New York and New 
Jersey.
    We support 232,000 jobs, $12.6 billion in wages, contribute 
$2.1 billion in State and local tax revenues, and transport 
cargo valued at over $132 billion.
    Perhaps most importantly is that the cargo that moves 
through this port serves approximately 80 million people, which 
equates to 35 percent of the entire U.S. population.
    Considering all this, it's easy to see how a terrorist 
incident in our Nation's ports would have a devastating effect 
on our country and its economy.
    As a result of significant legislative action, capital 
investments, and operational improvements on the part of public 
and private sectors in the nearly 5 years since September 11th, 
the maritime transportation system is more secure today than 
ever before.
    But enhancing maritime security is a complex problem, which 
requires a multifaceted and layered approach.
    Maritime security is so much more than just the physical 
security of our ports and terminals, and the vessels that use 
them, but also enhancing cargo and supply chain security.
    In addition to preventing another terrorist attack, we must 
also work on developing comprehensive programs that address not 
only prevention, but awareness, response, consequence 
management and business recovery, as well.
    As Congresswoman Maloney mentioned earlier, one of the 
principal outcomes of the work of the 9/11 Commission was a 
determination that information sharing and collaboration at all 
levels of government was less than adequate.
    Therefore, I'd like to briefly describe a number of 
initiatives that enhance communication and coordination among 
all of the Federal, State and local partners, as well as our 
private sector members.
    Immediately after September 11th, the Port Authority formed 
two committees in order to facilitate the exchange of critical 
security information and best practices between and among our 
customers, and the Federal, State and local law enforcement and 
emergency response communities that serve them.
    Our tenant security working group meets a minimum of 
monthly, and more often, as the threat level increases. This 
working group provides a forum for port users to exchange 
lessons learned, share best practices, develop programs, and 
solicit feedback from our Federal and State partners on issues 
of concern.
    This environment ensures that port security is not a 
competitive issue, but rather, an all hand evolution.
    The Port Authority also sponsors a Law Enforcement Security 
Committee. This Law Enforcement Security Committee brings 
together the approximately 25 Federal, State and local law 
enforcement and emergency response agencies that have 
responsibilities within our port region.
    Also held monthly or as often as the threat dictates, this 
forum provides an opportunity for the exchange of intelligence, 
discussion about discrete security programs and initiatives, 
and planning of joint drills, exercises and training.
    In addition to these two forums, both Commissioner Kelly 
and Captain O'Brien have mentioned the Area Maritime Security 
Committee, the objective of which is to continually assess 
security risk to the ports, determine appropriate risk 
mitigation strategies, and to develop, revise and implement the 
area maritime security plan.
    The Area Maritime Security Committee here in the Port of 
New York and New Jersey is made up over forty Federal, State 
and local private organizations that have a stake in port 
security.
    Executive leadership from each of these organizations gets 
together on a monthly basis to coordinate port wide activities 
and initiatives, receive intelligence briefings, and help the 
Captain of the port develop security policies and procedures.
    Our Area Maritime Security Committee has recently completed 
the development of a 2-year strategic plan, and a structural 
reorganization, to ensure that we are proactive and able to 
address the myriad of goals and objectives that were identified 
in the strategic plan.
    Of particular note to this committee is that we have a 
number of subcommittees specifically focusing on communications 
and intelligence, and are a good example of how well things are 
working.
    While it has not yet been an issue in the Port of New York 
and New Jersey, the lack of proper security clearances for key 
State, local and private stakeholders has the potential to be a 
significant barrier to an effective response to a credible 
security threat.
    The Area Maritime Security Committee was allocated about 10 
security clearances in early 2005. That's 10 security 
clearances for the second highest risk port in the Nation.
    In the event of a credible threat, there is no way to 
communicate above the security sensitive information level to 
many of the AMSC executive members, and the vast majority of 
the 197 facility security officers in the port.
    Congress and the administration must find ways to expedite 
the processing of security clearances, especially for those 
individuals that have previously held clearances, and to cross 
honor clearances that were issued by another department or 
agency.
    In order to help with coordination and communication, we 
also support the concept of a joint operation center, to 
enhance collaboration, coordination and communication.
    While we would do not currently have such a center here in 
New York and New Jersey, the Port Authority is working on an 
innovative virtual alternative to a physical joint operation 
center called the Regional Joint Awareness Network, or RIJAN.
    RIJAN would tie together individual agencies, disparate 
operation centers virtually, as opposed to requiring everybody 
to sit in one particular building.
    Finally, in the area of supply change security, the Port 
Authority is involved in the Operation Safe Commerce pilot 
project.
    Operation Safe Commerce is a public-private partnership 
that responds to the twin imperatives of facilitating 
legitimate international commerce and increasing security, 
while minimizing the impact on commerce.
    The goal is to develop dependable arrangements for 
verifying, securing, monitoring and sharing information about 
cargo from the point of origin throughout the supply chain to 
its final destination.
    We have identified some very promising and cost effective 
solutions in the last 3 years of this project.
    Unfortunately, Operation Safe Commerce is just one of a 
number of federally and privately funded supply chain security 
projects that are currently under way.
    While many of these individual projects show great promise, 
true progress and results are hampered by the fact that they 
are not tracked, managed and coordinated by a single department 
or agency.
    Additionally, under the guise of sensitive security 
information classification, findings and lessons learned are 
not being shared among the projects, results are not being 
leveraged, and funds are being wasted.
    We believe that all cargo security research and development 
projects should be managed by a single organization within DHS 
that acts as a central repository and clearinghouse for all 
studies, and the focal point on supply and security issues.
    Chairman Platts, the attacks of September 11th were not 
directed at a maritime facility, but those terrible events 
provided the impetus to focus attention at our maritime 
transportation system, which is so essential to our national 
economy and defense.
    You and your committee are to be commended for helping to 
bring focus to such a daunting task.
    I would be happy to answer any questions.
    [The prepared statement of Ms. Rooney follows:]
    [GRAPHIC] [TIFF OMITTED] T2324.014
    
    [GRAPHIC] [TIFF OMITTED] T2324.015
    
    [GRAPHIC] [TIFF OMITTED] T2324.016
    
    [GRAPHIC] [TIFF OMITTED] T2324.017
    
    [GRAPHIC] [TIFF OMITTED] T2324.018
    
    [GRAPHIC] [TIFF OMITTED] T2324.019
    
    [GRAPHIC] [TIFF OMITTED] T2324.020
    
    [GRAPHIC] [TIFF OMITTED] T2324.021
    
    [GRAPHIC] [TIFF OMITTED] T2324.022
    
    [GRAPHIC] [TIFF OMITTED] T2324.023
    
    [GRAPHIC] [TIFF OMITTED] T2324.024
    
    [GRAPHIC] [TIFF OMITTED] T2324.025
    
    [GRAPHIC] [TIFF OMITTED] T2324.026
    
    [GRAPHIC] [TIFF OMITTED] T2324.027
    
    [GRAPHIC] [TIFF OMITTED] T2324.028
    
    Mr. Platts. Thank you, Ms. Rooney.
    Mr. Caldwell, I think your written testimony, you 
summarized it well. The challenge here would say that the task 
here is how to deal with the demands of delivery in a world 
that has much-heightened security needs.
    So your testimony is certainly well appreciated.
    Mr. Caldwell.

                 STATEMENT OF STEPHEN CALDWELL

    Mr. Caldwell. Thank you very much.
    Mr. Chairman, I'm very happy to be here. Also 
Representative Towns and Representative Owens, and 
Representative Maloney.
    I'm pleased to be here to discuss sharing in the maritime 
environment.
    My testimony today is a summary and an update of a 2005 
report we did which Representative Maloney had already 
mentioned.
    And I'll get to the issue of security clearances in a 
moment.
    But the 2005 report was based on visits to several ports, 
but not including New York and New Jersey.
    So while I can't comment too much on the situation here in 
New York, I am going to need a lot from my colleagues, and as 
you know, there seems to be a consensus that maritime sharing, 
at least within the port, is pretty good.
    But I do want to say that on some of the larger issues of 
information sharing, those that go beyond maritime security, 
the news is not all good, and I'll talk about that, as well.
    Generally, on the positive side, our findings on the area 
of maritime security committees in another locations other than 
New York are also very positive, and we found that they are 
helpful structures sharing maritime information.
    In addition, inter-agency operational centers, the three 
that we visited in 2004, appear to be another positive venue 
for sharing information.
    And it sounds like there are initiatives here in New York 
that have very similar types of facilities here, or at least to 
link existing facilities to this technology.
    One of the key barriers to information sharing, that is the 
lack of security clearances by non Federal officials is being 
addressed by the Coast Guard.
    There are a couple of new issues that perhaps have come up 
today. One Commissioner Kelly mentioned, and that's the fact 
that there is not always a continuity of staff among State and 
local officials, and as those officials shift, the clearances 
don't transfer with them, so a new person would have to apply 
for those.
    And another issue that was brought up by Ms. Rooney is the 
issue of how many people actually have been deemed to have a 
need to know by the Coast Guard, and perhaps is that number too 
low.
    But what we have found is the Coast Guard has taken a 
number of steps since our 2005 report, and there has been 
considerable progress in the numbers of area maritime security 
people that have clearances, not just applications in, but 
actually having been granted interim clearances.
    I actually have a chart on that in my written statement.
    But still, nationwide, only 36 percent of those committee 
members that have been deemed to have a need to know actually 
have those security clearances.
    So there is still a ways to go, and so we would expect the 
Coast Guard--and I think they are committed to giving this area 
additional and continued attention.
    While my comments on information sharing for maritime 
security, as I've said, are generally positive, GO has some 
much broader concerns about information sharing and Homeland 
Security, as a whole.
    Last year designated this topic a high risk area, because 
the Federal Government faced formidable challenges in terms of 
identifying, analyzing, and sharing key information among us, 
more than 4 years after September 11th brought tragedy to this 
city and to America.
    The national still lacks comprehensive policies and 
procedures to improve information sharing that is critical to 
protecting our homeland.
    Mr. Chairman, and members of the subcommittee, I'll be 
happy to answer any questions.
    Mr. Platts. Thank you, Mr. Caldwell.
    I have a question really for all three of you, just on the 
formal structures of these maritime security committees, the 
international operational centers.
    Your opinions from your various backgrounds, whether that 
formal structure is the right and necessary approach, or should 
we be giving more flexibility to each port entity to better 
structure their needs based on their own situation?
    Captain O'Brien. Well, I guess I'll start.
    My experience has been in this port, as well as the port in 
Hampton Roads, where I was the commanding officer for the last 
3 years before coming here, the Area Maritime Security 
Committee works really well.
    And to have different structures of different ports means 
that as people move from port to port, not just military folks, 
but people who deal with ports, the consumers, the persons who 
are in the shipping industry, the people who are having to deal 
and trade with each port, they really need a consistent entity 
to deal with. And so having a structure that is duplicated port 
to port works really well from an economic standpoint.
    Certainly, there are adjustments that can be made to the 
structure based on what type of port you're in.
    I would say I had very little trouble with security 
clearances in the port of Hampton Roads, because everybody was 
a retired Navy officer, or were active duty Navy officers that 
we dealt with in the port.
    So those clearances transferred quite well.
    There are procedures in place to accept security clearances 
from other agencies, and I have found it to be very easy to 
transfer those security clearances in my dealings with both--
well, the area of maritime security, membership.
    Do we always need more? Yes.
    Is a limited amount of resource available to conduct 
background checks? Yes. And there are also going to be people 
who refuse to have they're background checks.
    That happens on a not routine basis.
    So that's my answer to that question.
    Ms. Rooney. I would agree that the structure as it is today 
works very well.
    In addition to the Area Maritime Security Committee, of 
importance to the Port Authority is that we also sit on the 
Drug Terrorism Task Force, both in New York and in New Jersey.
    And that forum, as well, not only in the maritime industry, 
but in road, rail, and aviation, provides that structure for 
intelligence sharing and coordination that is necessary.
    We have a number of groups, there are a number of 
opportunities, and what we value as most important is that 
before an incident occurs, it's because of these forums that we 
all know each other.
    So that God forbid if we have to show up at an incident, 
the police officers and the emergency responders actually know 
each other ahead of time, and have those preestablished 
relationships, and the understanding of what resources and 
capabilities are available.
    And that's all because of this preplanning and 
coordination.
    Mr. Caldwell. Thank you.
    In terms of our work outside of New York, at the other 
ports, we did find actually a lot of variation among how these 
committees were set up, but we didn't find it was onerous in 
any way.
    We actually found, as Commissioner Kelly had said here, 
when you've been to one port, you've been to one port. So you 
obviously have to have some flexibility.
    We did find slightly different structures, but all of them 
seem to be doing the main thing they were intended to do,share 
information.
    And I think one of the other important things to note, and 
I doubt New York is an exception to this, but a lot of these 
port committees have been around in one form or another for 
many years.
    In Charleston, it went back to 1926, where there was a Port 
Committee set up to discuss any variety of issues. And I think 
in those ports where there was an existing structure, nobody 
kind of rammed the new structure down their throat, they pretty 
much absorbed to the structure that was in place.
    So I think that we have a good balance now between 
flexibility and being yet able to carry out their function.
    Mr. Platts. A followup on this same issue, and then I'll 
yield to my colleagues.
    The safe port act, which recently past the house, it calls 
on the Secretary of Homeland Security to establish a maritime 
security command center.
    How do you view that requirement, if that were to go 
forward as currently written, in comparison to the Maritime 
Security Committees, or centers?
    What, if any, changes or similar type requirement, or adapt 
to what's in place to determine something different?
    Captain O'Brien. Well, I would I say the Coast Guard 
already has command centers in every port. We are building them 
out to make them more robust already.
    Any assistance in that area would be more than appreciated.
    But the concept of a central command center is a 
partnership arrangement with the local, State and Federal 
entities in the port to carry out operations within the port.
    So it kind of hits right on the nail of where the Coast 
Guard is heading.
    We are just not there yet.
    It's time, money and people.
    Mr. Platts. Your view is you see a requirement of really 
emulating what the Coast Guard is doing now with the sector 
command centers?
    Captain O'Brien. Yes, that's the goal of the sector command 
centers, to reach that point.
    Ms. Rooney. I would agree.
    I think the sector command center is providing a lot of the 
functionality that we would expect in a joint operation center, 
as envisioned in the legislation.
    My understanding of the proposed legislation in safe port 
is to take it a step further to similar to what we have in 
Charleston, with Project Sea Hawk, and in San Diego, and some 
other places around the country.
    Mr. Platts. Where it's operational?
    Ms. Rooney. Where it's day to day operational of all of 
those Federal, State and local partners in one location.
    We have talked about the need for a similar setup here in 
the Port of New York and New Jersey among our players, and we 
are, through the Coast Guard, have begun to sketch out exactly 
what that would look like.
    In the interim, we would caution in the legislation that we 
not jump immediately to buildings, and having everybody send 
staff to a single location, but creating the kind of activity 
through virtual operations among the NYPD, operation center, 
Coast Guard, Port Authority, and everybody else's operation 
centers, that the idea of building a building, and outfitting 
it with all the technology, is a huge undertaking.
    I submit it will be $40 to $45 million to build that 
structure, but with some virtual connectivity and technology, 
we can be coordinating much more closely on a day-to-day basis.
    So we would caution not to require a building, but to allow 
flexibility for virtual connectivity, as well.
    Mr. Platts. Mr. Caldwell.
    Mr. Caldwell. The issue has been around a couple of years, 
and the issue actually came up when we were doing our earlier 
study.
    We did actually visit Project Sea Hawk, in Charleston, 
Project Jay Hawk, in San Diego, as well, as Charleston, which 
had a pretty similar set up to the Jay Hawk.
    And the Coast Guard was actually directed by Congress to 
come out with a report on what these centers might look like.
    In our view, in that report, they took a very minimalist 
approach to that.
    I think there is kind of something that could be added to 
the analysis.
    One of the issues that came up right then is that the 
Department of Homeland Security had an overall project to look 
at its regional offices and its command centers among all its 
different agencies.
    What they wanted to try to see is now that they have all 
these agencies under their purview is can they set up some kind 
of command centers that can work across the different agencies 
within the HS, within Federal agencies, and then obviously on a 
local basis with the State and local officials, as needed.
    Around that time, Secretary Chertoff came on board and had 
announced in July 2005 a reorganization of the Department.
    So I think that issue is not really resolved yet. I think 
to some extent Hurricane Katrina has also taken some of the 
focus of the Department away from what it wants its long-term 
regional structure to look like.
    I think there's a couple of areas to look at.
    And in our report I can go into details, but it's in the 
report.
    We have identified five issue that we think need to be 
addressed if we're going to go forward with these.
    At that point, the sector command centers were generally 
Coast Guard, but everyone was asking if they could participate.
    So let me just go through some of those issues.
    One is to really clarify the mission and purposes of these 
centers. They can serve a variety of purposes, whether it be 
for overall harbor activities, or whether it would be just for 
security.
    The second issue is the leadership and organization. If you 
are going to build a building, if you are going to put someone 
in charge, at least of that physical space, you will have to 
figure out who that is, how you're going to share costs.
    The third issue was membership. Would membership be open 
to, obviously, Federal State and local, but then it's a little 
trickier if you want to get the private sector in there, 
particularly with some of the clearance issues.
    And then there is also an issue with the private sector, is 
if you give one private company access to these facilities, but 
not others, then are you giving one a competitive advantage.
    You can understand some of those things.
    Then the fourth issue we had was what kind of technology 
would be deployed. I think the Coast Guard has a backbone 
system they call Hawk Eye, if I am correct, which I think would 
serve a lot of these purposes.
    One of the things they had in Charleston was not only Hawk 
Eye, but they had access to customs and border protections, 
automatic targeting systems, so that when ships came in, not 
only could they look at all the information the Coast Guard had 
on the high interest vessel list, but they could actually do a 
scan of, or an analysis of, the containers on there, and what 
was the average risk level of those containers, and why was 
there a high risk for those containers.
    Technology costs money, and sometimes it's hard to make 
existing technology and new technology work together, so that's 
also an issue.
    And then the fifth issue was resource requirements.
    Obviously, it's going to cost money in terms of people. 
Some of these agencies have their own constraints.
    And one of the issues in terms of resources is which agency 
will fund them.
    One of the issues, I mean, one of the advantages that they 
had in Sea Hawk in getting such robust participation of the 
State and local governments, they had sixteen different State 
and local agencies involved, is they are actually paying 
salaries of those.
    And this is a very large question for Congress to address, 
are we going to start paying salaries of all of the security-
related personnel that are not Federal.
    So those five issues, I think, are fairly large issues to 
address in terms of moving forward with that.
    At a minimum level, Commander O'Brien is correct, the Coast 
Guard has set up sector command centers, and hopefully, they 
set these up in a way that they are expandable as needed, and 
as an ad hoc, or even on a continuing basis.
    Mr. Platts. And Commissioner Kelly challenges the 
resources, whether it would create a new structure.
    Ms. Rooney. If I can add just one thought to that.
    We would also caution that we not create maritime-specific 
command centers.
    As Captain O'Brien said, the maritime industry is dependent 
upon road, rail and air in some regards, and here in New York 
and New Jersey especially we are a multi mobile network.
    If we have maritime operation centers, it is likely that we 
will see air operation centers, and road and rail operation 
centers.
    So we would caution that we think in terms of 
transportation operation centers, because in many cases, the 
same agencies or organizations are involved in multiple modes 
of transportation, and because of resource issues, because of 
space constraints, and any number of other things, we need to 
think in terms of transportation, not mobile specific.
    Mr. Platts. Thank you.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin with you, Mr. O'Brien.
    Commissioner Kelly just stated that a cut would definitely 
affect his ability to perform his ability to do things. Would 
these cuts in the New York City Police Department create a 
burden for you, his ability to protect the Port Authority?
    Ms. Rooney. I don't believe it will cause drastic concerns.
    Commissioner Kelly said the NYPD is not on the port 
facility, is not out on the piers, themselves, but in a support 
role through the intelligence community, and things like that.
    The Port Authority Police, we have our own police force. 
These cuts do not affect the Port Authority's personnel or 
resources directly.
    I don't anticipate that there will be a drastic impact on 
Port Authority operations.
    Mr. Towns. Would that affect your ability to be first 
responders? It would not interfere with that?
    Ms. Rooney. Well, the NYPD are certainly one of our support 
agencies in terms of response. But again, at our facilities, 
airports, tunnels, bridges, the PATH train, and our seaports, 
the Port Authority are the first responders.
    We rely very heavily on NYPD, on New Jersey State Police, 
Newark and Elizabeth city and fire departments to assist us as 
necessary.
    But we are the primary first responders on our facility.
    Mr. Towns. I guess I would like to ask all of you this. For 
port security, is human intelligence more important than 
technology-based intelligence?
    Let's go right down the line, starting with you, Captain.
    Captain O'Brien. I don't know if it's more important, but 
it's equally important.
    Ms. Rooney. I would agree. We have 25,000 people 
approximately on our port facilities every day, and we count 
those 25,000 people among our partners in law enforcement, just 
as we rely on the citizens of the city of New York to provide 
information to the NYPD on things that don't look right.
    We rely on our longshoreman, our truck drivers and our port 
workers to report things to the Port Authority Police.
    Those men and women know better than anybody else when 
something is awry.
    Mr. Towns. Yes.
    Mr. Caldwell. I don't have that much at the local 
perspective in terms of the national.
    As you know, a lot of our national intelligence 
infrastructure was set up with a very heavy technological 
perspective, and so that is one thing that they are trying to 
improve, the transition from that to more emphasis on the human 
intelligence side.
    And I think if you look at who our enemies were that we 
were trying to spy on before, versus who we are trying to spy 
on now, obviously, when you have a huge country, and a military 
industrial complex like the Soviet Union, it's a lot easier to 
use technology to do it.
    The problem we're having, the intelligence community is 
having, with the terrorists is they are set up in a lot of 
disparate little cells. A lot of them are, obviously now Al 
Qaeda-affiliated, or Al Qaeda-related.
    But these aren't real strong links that you can use 
traditional intelligence technical means to always track down.
    Mr. Towns. Let me ask, what is being done about the 
enforcement of trucking security with regard to truckers' 
qualifications, background, all of that?
    What is being done in that area? This seems to be a real 
concern of people, because they are in and out of the ports.
    Ms. Rooney. Under the current regulations, under the 
current maritime security regulations, anyone with access to a 
marine terminal is required to have the basic minimum in terms 
of identification.
    That has recently changed with an interim program that the 
Coast Guard has put in place, where the Coast Guard and TSA 
will be conducting checks at least of the terrorist watch list, 
and immigration status of individuals who need unescorted 
access to marine terminals.
    The TWIC program, the transportation workers identification 
card, that smart biometric card will, in fact, address the 
background, the criminal background checks of all port workers, 
including truck drivers.
    But today, under current regulations, only truck drivers 
who have a hazardous material endorsement are required to have 
a full background check.
    Mr. Towns. When will that be instituted, the new program? 
When will it actually start do? Do we have a date for it?
    Ms. Rooney. The TWIC program is a Coast Guard and TSA 
program.
    Captain O'Brien. The Coast Guard will be a participant in 
homeland security for the maritime sector.
    The port workers, and truckers, and other folks in the 
transportation industry will be checked in various different 
programs.
    But a date certain, I do not have.
    Mr. Caldwell. I have a date, but I'm not sure it's the one 
you're looking for, Representative Towns.
    We have done a study of the TWIC program. In the fall of 
2004 we found that program was not well managed, and was far 
beyond schedule.
    Mr. Towns. Repeat that.
    Mr. Caldwell. We found that the TWIC program was not well 
managed and far beyond schedule.
    I just want to alert all of you that in July, later this 
month, I think it's July 25th, one of my colleagues will be 
testifying or our current review of the TWIC program.
    So we will have more for you later in the month on the 
status of that.
    Captain O'Brien. I think we could reply later, if you would 
allow us to submit a written reply to that.
    Mr. Towns. I would ask you to allow the record to be open, 
so they can provide that statement.
    Mr. Platts. We can get a formal response later, yes.
    Ms. Rooney. There was a public comment period on the new 
TWIC rules that just closed last week. So it's in motion, which 
is a good sign.
    Mr. Towns. That would establish a permanent security 
program based on risk.
    Would you agree that risk is the most appropriate way to 
allocate funds?
    Captain O'Brien. Well, I would agree that it's certainly a 
very important factor in how we allocate funds. But that's 
really a decision that Congress will make.
    Mr. Towns. Maybe with your advice, and your counsel. I 
think you need to speak up on it.
    Captain O'Brien. The Coast Guard has adopted a risk-based 
decisionmaking process for our methodology for making all our 
decisions.
    And so risk has to be a very high factor in what we choose 
to do, and what we choose to fund.
    Risk can be defined in many different ways. So it's very, 
very difficult to give you a clearcut answer until you really 
define what risk you're talking about.
    In the Port of New York, the risk factors are going to be 
significantly different than they are in another port in the 
United States.
    Mr. Towns. I hear you.
    One thing we should not lose sight of is that New York City 
has already experienced September 11th, and of course, I think 
that this is a fact to be considered, and every assessment, 
every report, has indicated that New York City is a target, 
everybody says that.
    Of course, there have been situations that have been 
aborted as result of intelligence.
    So I really applaud the Police Department, and others who 
have done that.
    But I just think that we are taking this whole thing of 
risk very lightly, and I don't think we should take it lightly.
    I think that risk is the key, and that based on protecting 
people, if we are talking about security, I think the risk has 
to be No. 1.
    Captain O'Brien. I can say for certain that everything we 
do in this port, that the Coast Guard does injunction with our 
partners, is all based on risk.
    Every decision we make about what we are going to do with 
our assets every day is based on risk at the port level.
    Mr. Towns. Thank you.
    Mr. Platts. Thank you.
    Ms. Maloney.
    Mrs. Maloney. Thank you.
    Are there any plans to create an inter-agency operational 
center in New York?
    Anyone?
    Captain O'Brien. I can tell you that you're talking about 
inter-agency operational center. We certainly have that 
capability in the maritime sector, the sector command centers.
    I'm not privy to everybody's plans. So I don't have an 
answer to that for a wide multi-modal operations center.
    Mrs. Maloney. The port will be used in lieu of operational 
center, due to the fact that we don't have one in New York.
    Captain O'Brien. I would say that during incidents, the 
Coast Guard, as well as all of its port partners, we have 
adopted what we call a unified command approach, a unified 
command system, that all of us are schooled in that are in the 
response and the law enforcement communities.
    And we exercise that very often. And we do a pretty good 
job of it.
    So we do exercise command and control by looking at all the 
different agencies that have different jurisdictional 
responsibilities, and we get together and try to provide for 
everyone's jurisdictional responsibilities in every response 
that we make.
    Mrs. Maloney. How many containers are screened coming into 
the New York/New Jersey ports? It has been reported that 5 
percent of the containers are screened.
    Can you elaborate on that?
    Captain O'Brien. I'll be happy to give you an answer to 
that, but I can't give it to you know.
    Mrs. Maloney. Pardon me?
    Captain O'Brien. I can certainly give you the answer to 
that later in writing.
    Mrs. Maloney. Can anyone respond to that?
    Ms. Rooney. It's certainly within customs and border 
protection's domain to screen cargo. They would say that 100 
percent of all cargo is screened, and that 100 percent of all 
high risk cargo is inspected.
    But as Captain O'Brien stated, I think it's best that we 
get together with our port partners in order to provide you 
with an answer to that question.
    Mrs. Maloney. It has repeatedly been reported in various 
reports that only 5 percent of our containers are screened.
    With the technology that was described earlier, being able 
to go in and screen it.
    Ms. Rooney. And I think our partners in Customs would that 
say that 5 percent number is the overall quantity which are 
deemed to be high risk, and that 100 percent of all high risk 
containers are screened.
    It happens to be perhaps 5 percent, but they're using a 
risk profile.
    Mrs. Maloney. But roughly 5 percent of the cargo coming 
into the United States is screened?
    Ms. Rooney. 100 percent of high risk are screened. It 
equates to 5 percent on average in the country. But it's 100 
percent of all high risk containers.
    Mrs. Maloney. Do you say 5 percent in the country, or 5 
percent in the New York ports?
    Ms. Rooney. It's in the country.
    Mrs. Maloney. Do you know about the New York ports, what 
percentage is screened?
    Ms. Rooney. We can get back to you with the current 
numbers.
    I believe the numbers today are between 7 to 9 percent in 
New York and New Jersey.
    Mrs. Maloney. Seven to 9 percent?
    Ms. Rooney. Yes.
    Mrs. Maloney. I want to thank you for your hard work.
    I've been told by the chairman that he has a plane to 
catch. Thank you.
    Mr. Platts. Thank you, Ms. Maloney.
    I do have two quick followup questions, if I could.
    One is just on the number of security, 10, that have been 
allocated to the Port of New York and New Jersey.
    Captain O'Brien, I know you're only 3 weeks here.
    Are you able to, as far as your understanding, how that 
number, you got 10, or these are the only 10 we acknowledge as 
having a need to do know, per port?
    Captain O'Brien. Well, the 10 per port is really sort of a 
round number.
    My experience up until arriving here 3 weeks ago was that I 
had no trouble at all getting additional quotas for screening 
of personnel.
    And so I don't know what the limits--Bethann has been here 
for a considerable amount of time longer period than I have. 
She might be able to tell you.
    But I never had a request turned down to have someone 
screened.
    Mr. Platts. But the issue here is not those with 
transferring within.
    Captain O'Brien. I'm talking about putting names in to have 
them screened.
    I'm not sure exactly how quickly they will get to them, but 
nobody has ever me that he couldn't turn in more than a certain 
number.
    Mr. Platts. I was told there are currently only 10 
allocated for the area.
    Ms. Rooney.
    Ms. Rooney. Yes, that's correct.
    My share of the Area Maritime Committee was given 10 
security clearances.
    And at an Executive Steering Committee, we identified who 
from our Federal, State and local partners had them, who needed 
them, and then looked at the private sector members in terms of 
who needed them.
    And we prioritized, as you stated, as to who those first 10 
applicants were going to.
    We have gone back, we did at the time go back, as Captain 
O'Brien suggested, and asked for additional clearances, 
because, as I stated before, we have over forty-six agencies or 
organizations that are on the AMSC.
    I actually don't know the current status of that, but 
again, it's something that we can get back to you on.
    Mr. Platts. That's something, Captain O'Brien, coming from 
a different scenario, is to look at the uniqueness of New York, 
this port, the volume, the risk, as Commissioner Kelly said, 
the No. 1 risk they identified in the country.
    If there was a standard type 10 per port, that really 
doesn't take into account the challenges here.
    So that dialog that's ongoing with you and your partners, 
we would encourage you to expedite as best as you can.
    Captain O'Brien. Yes.
    And, as you know, it's a long, drawn-out process to get 
clearance.
    One of the problems that I've seen in the past is that not 
only sometimes the person moves on after they get the 
clearance, but sometimes they move on before the clearance even 
comes through, which is a significant problem.
    But when you're talking about looking at someone's entire 
life history, it gets to be a pretty long and drawn out 
process.
    I know it took me about 2 years to get my clearance.
    Mr. Platts. A final question before we do need to wrap up.
    With the Port Authority, Ms. Rooney, not being real 
familiar with the port operations, I assume that there's a fee 
based on tonnage that comes through the port, the processing of 
the freight.
    Is there, in response to September 11th, and the tremendous 
demand on security now, was there an imposition with the Port 
of New York and New Jersey as to surcharges, security, similar 
to like airline tickets?
    Is there anything in that you would suggest be incorporated 
into the operating costs of the port?
    Ms. Rooney. All of our security expenses have been 
completely incorporated into our operating expenses.
    By the end of this year, we will spend close to $85 million 
on port security, capital and operating.
    Mr. Platts. Since September 11th?
    Ms. Rooney. Since September 11th.
    And that's the incremental increase since September 11th.
    The Port Authority has absorbed all of those expenses.
    We have gotten $10.5 million of that through the Federal 
port security grants in the past.
    Many of our port partners around the country have 
instituted surcharges, or port security user fees.
    It's certainly something that we are beginning to look at, 
but have not done so far.
    For every dollar that we spend on security, because we 
raise money through bonds, and government bonds, there is $10 
less that we have for capital improvements that we need for 
productivity, and efficiency, and roadway and railway capacity.
    So it is critical that we have some security funding, as 
well.
    Mr. Platts. I want to thank each of you again for your 
testimony, and your work day in and day out, and your service.
    We will keep the record open for 2 weeks for additional 
followup information.
    This hearing stands adjourned.
    [Whereupon, at 2:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
